No. 19-600

 

IN THE

Supreme Court of the United States

JON KRAKAUER,

Petitioner,
Vv.

STATE OF MONTANA, BY AND THROUGH ITS
COMMISSIONER OF HIGHER EDUCATION,
CLAYTON CHRISTIAN,

Respondent.

On Petition for a Writ of Certiorari to the
Montana Supreme Court

BRIEF AMICUS CURIAE OF THE STUDENT
PRESS LAW CENTER, NATIONAL FREEDOM
OF INFORMATION COALITION, NEWS
LEADERS ASSOCIATION, SOCIETY OF
PROFESSIONAL JOURNALISTS, GANNETT
CO., INC., THE E.W. SCRIPPS COMPANY,
AND BRECHNER CENTER FOR FREEDOM
OF INFORMATION IN SUPPORT OF
PETITIONER JON KRAKAUER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,732 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d). .

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 9, 2019.

l.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
